APPENDIX
TABLE OF CONTENTS
APPENDIX A: Court of Appeals order dismissing appeal

la

APPENDIX B: Court of Appeals order making moot petition
for writ of mandamus........................................

2a

APPENDIX C: New York Supreme Court Appellate Division,
Third Department notice of appeal...................

3a

APPENDIX D: District Court notice of appeal

4a

APPENDIX E: New York Supreme Court Appellate Division,
Third Department, first order denying motion for stay..... 5a

APPENDIX F: New York Supreme Court Appellate Division,
Third Department, second order denying motion for stay...6a

APPENDIX G: District Court order dismissing plaintiffs/petitioner’s
amended District Court complaint..................................

APPENDIX H: Text of constitutional provisions and legal
principle involved............................................

7a

38a

Case 20-3525, Document 37, 01/27/2021,3022155, Pagel of 1
APPENDIX A
la

N.D.N.Y.
17-cv-937
Hurd, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT
At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 27th day of January, two thousand twenty-one.
Present:
Debra Ann Livingston,
ChiefJudge,
Jose A. Cabranes,
Gerard E. Lynch,
Circuit Judges.
Randy R. Bell,
Plaintiff-Appellant,
20-3525

v.
New York State Department of Corrections and Community Supervision,
individually as a state agency, in its official capacity and as a co-conspirator,
et al.,
Defendants-Appellees.

Appellant, pro se, moves for appointment of counsel. However, this Court has determined sua
sponte that the notice of appeal was untimely filed. Upon due consideration, it is hereby
ORDERED that the appeal is DISMISSED for lack ofjurisdiction. See 28 U.S.C. § 2107; Bowles
v. Russell, 551 U.S. 205,214 (2007). It is further ORDERED that Appellant’s motion is DENIED
as moot.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court
iSwiL

Case 20-3525, Document 46, 02/17/2021,3037574, Pagel of 1
APPENDIX B
2a

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
17th day of February, two thousand twenty-one.

Randy R. Bell,
ORDER
Plaintiff - Appellant,
Docket No. 20-3525
v.
New York State Department of Corrections
and Community Supervision, et al.,
Defendants - Appellees

Appellant moves for a writ of mandamus directing a New York state court to hold a case
in abeyance.
IT IS HEREBY ORDERED that the motion is DENIED as moot in light of this Court’s
mandate issued February 17, 2021.

For the Court:
Catherine O’Hagan Wolfe,
Clerk of Court

APPENDIX C
3a

NOTICE OF APPEAL TO APPELLATE DIVISION. THIRD DEPARTMENT
FROM ORDER/JUDGMENT
\mjl OF LOWER COURT
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF ST. LAWRENCE
RANDY BELL,
Plaintiff,
NOTICE OF APPEAL

-v-

Index No.:

SclS

r.n-cu- 937

GREG FREDERICKS, et al.,
Defendants.

PLEASE TAKE NOTICE that, Randy Bell, the plaintiff In this action / proceeding, hereby appeals to the
Appellate Division of the Supreme Court, Third Judicial Department, from the original Decision and
Order of the State of New York Supreme Court, entered in the office of the derk of St Lawrence County,
onthe llthjlayof May, 2020 ard from each and every part thereof.

Dated:

__ 20
Randy Beil, Pro Se Plaintiff
5668 EloiseCr.,PO Box 584,
Osgoode, Ontario, Canada, KOA 2W0
1-613-469-0131

)
TO:

Adda M. Lendon, Esq., (State Defendants Counsel)
Assistant Attorney General
NYS Office of the Attorney General
317 Washington Street
Watertown, NY 13601
Thomas D. Latin, Esq., (NY5COPBA Union Defendants Counsel)
(Jppes Mathias Wexler Friedman LLP
54 State Street, Suite 1001,
Albany, NY 12207

Nota: The notice ot appeal must aba be filed In the office where the Jadgmant or order of the comt of or%lnel
Instance b entered (CPU SS1S [1]).
2020609*79

CV-19-166303

06/05/2020 12:20:49 PM
Pages 6
NOTICE OF APPEAL
Sandra W Santamoor, St Law Co ClarV

Case l:17-cv-00937-DNH-CFH Document 65 Filed 10/09/20 Page 1 of 4
APPENDIX D
4a

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK

U.5. DISTRICT COURT • N.D. OF N.Y.

filed
OCT - 9 2020

AT_____O'CLOCK________
John M. Domurad, Clerk - Syracuse

RANDY BELL
Plaintiff

File No.: l:17-CV-937

NOTICE OF APPEAL

-against-

THE NEW YORK STATE DEPARTMENT OF
CORRECTIONS AND COMMUNITY SUPERVISION,
et. al.,
Defendants.

Notice is hereby given that I, Randy Bell, Plaintiff in the above-named action, hereby appeals to
the United States Court of Appeals for the 2nd Circuit, from a decision/order, dismissing all
Federal and Constitutional claims, pre answer, by District Court Judge David Hurd, entered in
this action on the 22 day of March, 2019. This appeal is pursuant to Federal Rules of Civil
Procedure, Rule 60 (3) (d) (fraudulent concealment by the defendants and fraudulent
concealment and fraud upon the court by Northern New York District Court Judge David Hurd).
Attached please find the filing fee of $505.00.

7-20^0
Randy Bell
Plaintiff Appellant
5668 Eloise Cr.
Osgoode, Ontario
Canada, K0A 2W0
613-469-0131

APPENDIX E
5a

State of New York
Supreme Court, Appellate Division.
TfurdJiuScialDepartment

Decided and Entered: November 27,2020

p®IO®E|il
NOV 3 0 2020

532142

RANDY BELL,
v

Appellant,
DECISION AND ORDER
ON MOTION

GREG FREDERICKS et al.,
Respondents.

Motion for stay of appeal and for furtherreliefr
Upon the papers filed in support of the motion and the papers filed in opposition
thereto, it is
ORDERED that the motion is denied, without costs.
Clark, J.P., Pritzker, Reynolds Fitzgerald and Colangelo, JJ., concur.
ENTER:

Robert D. Mayberger
Clerk of the Court

APPENDIX F
6a

State of New York
Supreme Court, Appellate Division
ThirdJxdicial Department

mSSBWIE
|] JAN 1 1 2021
By.

Decided and Entered: January 8,2021

532142

RANDY BELL,
Appellant,
v

DECISION AND ORDER
ON MOTION

GREG FREDERICKS et al.,
Respondents.

Motion for reconsideration or, in the alternative, for permission to appeal to the
Court of Appeals
Upon the papers filed in support of the motion, and no papers having been filed
in opposition thereto, it is
ORDERED that the motion is denied, without costs.
Clark, J.P., Pritzker, Reynolds Fitzgerald and Colangelo, JJ., concur.
ENTER:

Clerk of the Court

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page lot 31
APPENDIX G
7a

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK

RANDY R. BELL
Plaintiff,
No. 1:17-CV-937
-vNEW YORK STATE DEPARTMENT OF
CORRECTIONS AND COMMUNITY
SUPERVISION; NEW YORK STATE
CORRECTIONAL OFFICERS AND POLICE
BENEVOLENT ASSOCIATION INC.; ANTHONY
ANNUCCI; MIKE POWERS; GREG
FREDERICKS; JIM BLEU; TERRY PIKE; KEVIN
ALDOUS; MICHAEL CALDWELL; CALVIN
RABSATT; BRIAN MCAULIFFE; MIKE SOVIE;
MICHELE O’GORMAN; JAMES BELL; SCOTT
CLARY; STEVE GARABRANDT; TONY
HARPER; CARL HEWKO; TOM PATNODE; and
PATRICK GRAY,
Defendants.

APPEARANCES:
RANDY R. BELL
Plaintiff pro se
5668 Eloise Cr.
P.O. Box 584
Osgoode, Ontario KOA 2W0
HON. LETITIA JAMES
Attorney General for the State of New York
Attorney for State Defendants
The Capitol
Albany, NY 12224

HELENA O. PEDERSON, ESQ.
Ass't Attorney General

LIPPES MATHIAS WEXLER FRIEDMAN LLP
Attorney for NYSCOPBA Defendants
54 State St., Suite 1001
Albany, NY 12207

THOMAS D. LATIN, ESQ.

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 2 of 31
8a

DAVID N. HURD
United States District Judge

MEMORANDUM-DECISION and ORDER
I. INTRODUCTION
Pro se plaintiff Randy R. Bell ("plaintiff1 or "Bell") filed this civil action on August 24,
2017, alleging various federal and state claims related to the alleged unfair distribution of
overtime assignments by his employer, Riverview Correctional Facility ("RCF"). He brings
suit against various entities, New York State correctional officers, supervisors, and
administrators, and union members. In total, the complaint includes twelve causes of action
against twenty defendants.
Defendants include: New York State Department of Corrections and Community
Supervision ("DOCCS"), individually as a state agency, in its official capacity and as a
co-conspirator; New York State Correctional Officers and Police Benevolent Association Inc.
("NYSCOPBA"), individually, in its official capacity and as a co-conspirator; Anthony Annucci
("Annucci"), individually, in his official capacity and as a co-conspirator, Acting Commissioner
of the New York State Corrections and Community Supervision; Mike Powers ("Powers")
individually, in his official capacity and as a co-conspirator, Former RCF Corrections
Sergeant and present NYSCOPBA Executive President; Greg Fredericks ("Fredericks"),
individually, in his official capacity and as a co-conspirator, RCF Corrections Officer and local
NYSCOPBA Union President (retired); Jim Bleu ("Bleu"), individually, in his official capacity
and as a co-conspirator, RCF Corrections Officer and local NYSCOPBA Union President
(resigned); Terry Pike ("Pike"), individually, in his official capacity and as a co-conspirator,

-2-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 3 of 31
9a

RCF Corrections Officer and local NYSCOPBA Union President (resigned); Kevin Aldous
("Aldous"), individually, in his official capacity and as a co-conspirator, RCF Corrections
Officer and local NYSCOPBA Union President (current); Michael Caldwell ("Caldwell"),
individually, in his official capacity and as a co-conspirator, RCF Deputy Superintendent of
Security; Calvin Rabsatt ("Rabsatt"), individually, in his official capacity and as a
co-conspirator, Superintendent of RCF (retired); Brian McAuliffe ("McAuliffe"), individually, in
his official capacity and as a co-conspirator, current Superintendent of RCF; Mike Sovie
("Sovie"), individually, in his official capacity and as a co-conspirator, RCF Corrections
Sergeant and NYSCOPBA union member; Michele O’Gorman ("O'Gorman"), individually, in
her1 official capacity and as a co-conspirator, New York State Labor Relations Deputy
Director; James Bell ("J. Bell"), individually, in his official capacity and as a co-conspirator,
RCF Corrections Officer and local NYSCOPBA union representative; Scott Clary ("Clary"),
individually, in his official capacity and as a co-conspirator, Former RCF Corrections
Sergeant and current Corrections Lieutenant; Steve Garabrandt ("Garabrandt"), individually,
in his official capacity and as a co-conspirator, RCF Corrections Sergeant and local
NYSCOPBA union representative for the Sergeants; Tony Harper ("Harper"), individually, in
his official capacity and as a co-conspirator, RCF Corrections Officer and NYSCOPBA union
member; Carl Hewko ("Hewko"), individually, in his official capacity and as a co-conspirator
RCF Corrections Officer and NYSCOPBA union member; Tom Patnode ("Patnode")
individually, in his official capacity and as a co-conspirator, RCF Corrections Sergeant and
NYSCOPBA union member; and Patrick Gray ("Gray"), individually, in his official capacity

The docket indicates "his" but Michele O'Gorman is a woman.
-3-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 4 of 31
10a

and as a co-conspirator, RCF Corrections Officer and NYSCOPBA union member
(collectively "defendants").
Defendants can be grouped into two sets: (1) the "NYSCOPBA defendants,"
represented by Thomas D. Latin, Esq. of Lippes Mathias Wexler Friedman LLP, and (2) the
"State defendants," represented by Helena O. Pederson, Esq. of the New York State
Attorney General's Office. The NYSCOPBA defendants include: NYSCOPBA, Powers,
Fredericks, Bleu, Pike, Aldous, Harper, and Hewko. The State defendants include: DOCCS,
Annucci, Caldwell, Rabsatt, McAuliffe, Sovie, O'Gorman, J. Bell2, Clary, Garabrandt
Patnode, and Gray.
The NYSCOPBA defendants collectively moved3 under Federal Rule of Civil
Procedure ("Rule") 12(b)(1) & (6) seeking to dismiss plaintiff's complaint in its entirety for
failure to state any claims upon which relief could be granted. Thereafter, the State
defendants collectively moved under Rule 12(b)(1) & (6) seeking to dismiss plaintiffs
complaint in its entirety for failure to state any claims upon which relief could be granted.
While the two motions are not identical, there are many consistent arguments throughout
both motions. Plaintiff opposed both motions and separately moved to amend his complaint.
Both sets of defendants opposed plaintiffs motion to amend. All three motions have been
fully briefed and have been considered on the basis of the submissions without oral
argument.

2 Both attorneys have appeared on behalf of J. Bell. Attorney Pederson has since clarified that this
defendant will be represented by the Attorney General's office to the extent the allegations against him in the
complaint relate to his duties as an employee of DOCCS, as opposed to his role as a union member or
representative.
3 This motion was originally made only on behalf of defendants NYSCOPBA and Powers, but was
later amended to include defendants Fredericks, Bleu, Pike, Aldous, Harper, and Hewko. ECF No. 43.
-4-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 5 of 31
1 la

II. BACKGROUND4
At all relevant times, plaintiff was a correctional officer employed by DOCCS, at RCF.
He is a member of NYSCOPBA, which is the certified bargaining representative for the
Security Services Unity of New York State employees, which includes all correctional officers
and correctional sergeants employed by DOCCS.
NYSCOPBA and the State of New York entered into a Collective Bargaining
Agreement ("CBA"). Bell details in his pleadings the relevant CBA voluntary overtime
provisions. He was not satisfied with the system by which overtime was assigned at RCF
and wanted DOCCS and NYSCOPBA to enter into a labor management agreement creating
a new method of assigning voluntary overtime. Bell asserts that in 2013, he proposed an
overtime assignment scheme to be used at RCF. Instead, RCF management, union
representatives, and "corrupt officers" prevented the overtime proposal from being
implemented by influencing a union vote.
According to Bell, implementation of his proposal would have stopped theft of
overtime pay that occurred as a result of preferential overtime job assignments being
sometimes given to or saved for more preferred officers. Further, union members threatened
officers in the workplace not to report the overtime hiring corruption. Plaintiff also details
incidents which took place at defendants' union meetings and events.
Bell filed two contract grievances with NYSCOPBA. Following the Step 2 hearings
(agency level hearings) on both contract grievances, DOCCS denied the grievances.

4 For reasons explained below, the following factual allegations are drawn from plaintiffs proposed
amended complaint, ECF No. 45-2, and are assumed true for purposes of resolving defendants' motions to
dismiss.
-5-

. Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 6 of 31
12a

NYSCOPBA then advised plaintiff that it would not further pursue the grievances on his
behalf because there was no contractual provision which permitted NYSCOPBA to
unilaterally impose a membership-driven overtime labor management agreement upon
DOCCS.
Plaintiff also filed three complaints with the New York State Public Employment
Relations Board which, according to Bell, were wrongfully rejected for deficiencies.
III. LEGAL STANDARDS
A. Motion to Amend
Where, as here, "a plaintiff seeks to amend [the] complaint while a motion to dismiss
is pending, a court 'has a variety of ways in which it may deal with the pending motion to
dismiss, from denying the motion as moot to considering the merits of the motion in light of
the amended complaint."’ Hamzik v. Office for People with Dev. Disabilities, 859 F. Supp. 2d
265, 273-74 (N.D.N.Y. 2012) (quoting Roller Bearing Co. of Am., Inc, v. Am. Software, Inc.,
570 F. Supp. 2d 376, 384 (D. Conn. 2008)).
Under Rule 15, "a party may amend its pleading only with the opposing party's written
consent or the court's leave. The court should freely give leave when justice so requires."
Fed. R. Civ. P. 15(a)(2); see also Foman v. Davis, 371 U.S. 178, 182 (1962) ("In the absence
of any apparent or declared reason—such as undue delay, bad faith or dilatory motive on the
part of the movant, repeated failure to cure deficiencies by amendments previously allowed,
undue prejudice to the opposing party by virtue of allowance of the amendment, futility of
amendment, etc.—the leave sought should, as the rules require, be 'freely given.'").
Bell's amended complaint, ECF No. 45-2, adds three new defendants: Scott Feldt,
Troy Miller, and Tim Allen, all in their capacities as DOCCS employees. Plaintiff alleges
-6-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 7 of 31
13a

these individuals engaged in acts of harassment, discrimination, and retaliation beyond those
included in the initial complaint. Bell also seeks to clarify his claims by adding and removing
language throughout the amended complaint and by re-naming several of the claims from his
original complaint. He has also added seven additional claims, bringing the total to 19
causes of action. The amended complaint spans 144 pages, a marked increase from his
initial 86 page complaint.
B. Amended Complaint
The amended complaint includes the following causes of action: (1) breach of
contract (neglect to ensure equal overtime distribution), against all defendants except Hewko
Patnode, and Gray; (2) breach of contract (tortious interference), against all defendants;
(3) 42 U.S.C. § 1983, violation of the Equal Protection Clause of the Fourteenth Amendment,
against all defendants; (4) New York Civil Practice Law and Rules ("N.Y.C.P.L.R.") 214-5,
against defendants Bell and Harper only; (5) 42 U.S.C. § 1985(2) and (3) conspiracy to
interfere with civil rights and the Fourteenth Amendment, against all defendants; (6) 42
U.S.C. § 1985(2) and (3) civil rights and the Fourteenth Amendment, conspiracy to retaliate
against plaintiff, against all defendants; (7) Public Employees Fair Employment Act, no local
NYSCOPBA union representative elections, against defendants NYSCOPBA, Powers,
Fredericks, Bleu, Pike, and Aldous; (8) Public Employees Fair Employment Act, deprivation
of local NYSCOPBA union meetings, against defendants NYSCOPBA, Powers, Fredericks,
Bleu, Pike, and Aldous; (9) Public Employees Fair Employment Act, alcoholic beverages at
NYSCOPBA meetings, against defendants NYSCOPBA, Powers, Fredericks, Bleu, Pike, and
Aldous; (10) First and Fourteenth Amendment violations, retaliation, against all defendants;
(11) N.Y. Civil Service Law Article 14 Public Employees Fair Employment Act (failure to
-7-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 8 of 31
14a

represent) (failure to adhere to act), against all defendants except Gray, Hewko, Patnode,
and Clary; (12) 42 U.S.C. § 1983 deprivation of constitutional rights, against all defendants;
(13) 42 U.S.C. § 1983 First and Fourteenth Amendment violations, freedom of speech or
expression5; (14) Title VII and Fourteenth Amendment violations6; (15) breach of fiduciary
duty and constructive fraud, against all defendants; (16) N.Y.C.P.L.R. 214-5 (personal injury)
against all defendants; (17) N.Y.C.P.L.R. 214-3, 214-4 (personal injury to property), against
all defendants; (18)42 U.S.C. § 1983, N.Y.C.P.L.R. 155 larceny, embezzlement, 18 U.S.C.
Chapter 31 (641, 653, 654) embezzlement, theft, conversion, against defendants Rabsatt,
McAuliffe, and Caldwell; and (19) Fair Labor Standards Act ("FLSA") violation, against all
defendants.
Defendants collectively contend plaintiffs motion to amend should be denied, since "it
is well established that leave to amend a complaint need not be granted where amendment
would be futile." Ellis v. Chao, 336 F.3d 114, 127 (2d Cir. 2003). Defendants argue that
plaintiffs proposed amendments neither cure the deficiencies in his original complaint, nor
set forth new viable causes of action. However, beyond their futility argument, defendants
have offered no other basis—such as undue delay, bad faith or dilatory motive on the part of
the movant, repeated failure to cure deficiencies by amendments previously allowed, or
undue prejudice—which might justify denial of Bell's request to amend. Accordingly,
plaintiffs motion to amend will be granted in that the allegations in the amended complaint
will be analyzed to determine whether one or more of the causes of action must be
dismissed as futile.
5 Plaintiff does not specify which defendants this cause of action is asserted against.
6 Plaintiff does not specify which defendants this cause of action is asserted against.
-8-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 9 of 31
15a

"An amendment to a pleading is futile if the proposed claim could not withstand a
motion to dismiss pursuant to Fed. R. Civ. P. 12(b)(6)." Lucente v. Inti Bus. Machs. Coro..
310 F.3d 243, 258 (2d Cir. 2002); see also IBEW Local Union No. 58 Pension Trust Fund &
Annuity Fund v. Royal Bank of Scotland Grp., PLC, 783 F.3d 383, 389 (2d Cir. 2015) ("The
standard for denying leave to amend based on futility is the same as the standard for
granting a motion to dismiss.").
C. Motions to Dismiss
"To survive a Rule 12(b)(6) motion to dismiss, the '[factual allegations must be
enough to raise a right to relief above the speculative level.'" Ginsburg v. City of Ithaca, 839
F. Supp. 2d 537, 540 (N.D.N.Y. 2012) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555
(2007)). "Although a complaint need only contain 'a short and plain statement of the claim
showing that the pleader is entitled to relief', Fed. R. Civ. P. 8(A)(2), more than mere
conclusions are required." Id. "Indeed, '[w]hile legal conclusions can provide the framework
of a complaint, they must be supported by factual allegations.'" Id. (quoting Ashcroft v. Iqbal
556 U.S. 662, 679 (2009)). "Dismissal is appropriate only where plaintiff has failed to provide
some basis for the allegations that support the elements of his claims." Id.; see also
Twombly, 550 U.S. at 570 (requiring "only enough facts to state a claim to relief that is
plausible on its face").
"When ruling on a motion to dismiss, the court must accept as true all of the factual
allegations contained in the complaint and draw all reasonable inferences in the
non-movant's favor." Faiazv. Colgate Univ., 64 F. Supp. 3d 336, 344 (N.D.N.Y. 2014)
(Baxter, M.J.). In making this determination, a court generally confines itself to the "facts
stated on the face of the complaint, .. . documents appended to the complaint or
-9-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 10 of 31
16a

incorporated in the complaint by reference, and . .. matters of which judicial notice may be
taken." Goel v. Bunge, Ltd., 820 F.3d 554, 559 (2d Cir. 2016) (quoting Concord Assocs.,
L.P. v. Entm't Props. Tr., 817 F.3d 46, 51 n.2 (2d Cir. 2016)).
IV. DISCUSSION
A. Initial Issues
1. Pro se Plaintiff
At the outset, a few things bear mention. First, even though it is not obvious from the
logically organized and clearly written though verbose nature of his submissions, Bell is
proceeding without the benefit of a lawyer, a state of affairs that entitles him to a certain
measure of latitude here. As the Second Circuit has repeatedly explained, "[a] document
filed pro se is 'to be liberally construed,' and 'a pro se complaint, however inartfully pleaded,
must be held to less stringent standards than formal pleadings drafted by lawyers.’" Ahlers v.
Rabinowitz, 684 F.3d 53, 60 (2d Cir. 2012) (quoting Erickson v. Pardus, 551 U.S. 89, 94
(2007)). "'This is particularly so when the pro se plaintiff alleges that h[is] civil rights have
been violated.'" ]d. (quoting Sealed Plaintiff v. Sealed Defendant, 537 F.3d 185, 191 (2d Cir.
2008)).7
It is also noted that Bell has specified, in all but two causes of action, which claims are
asserted against which defendants. The majority of plaintiffs claims are asserted against all
defendants; for the two that Bell does not specify defendants, it is assumed for purposes of
this discussion that he intended to name all defendants. Moreover, in several causes of
7 However, "all normal rules of pleading are not absolutely suspended" when a plaintiff is proceeding
pro se. Jackson v. Onondaga Cty., 549 F. Supp. 2d 204, 214 (N.D.N.Y. 2008) (McAvoy, J.) (internal
quotations and footnote omitted). Even a pro se plaintiff must plead sufficient factual allegations to suggest
an entitlement to relief. See id. Simply put, Rule 8 "demands more than an unadorned,
the-defendant-unlawfully-harmed-me accusation." Iqbal, 556 U.S. at 678.

-10-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 11 of 31
17a

action, Bell alleges violations of multiple statutes or amendments; those causes of action will
therefore be analyzed in multiple sections below.
2. Sovereign Immunity
The Eleventh Amendment "bars suits in federal court against a state or its agencies
unless the state has waived immunity to suit or Congress has validly abrogated its immunity."
Keitt v. New York City, 882 F. Supp. 2d 412, 447 (S.D.N.Y. 2011) (citing Huang v. Johnson
251 F3d 65, 69-70 (2d Cir. 2001)); see also Feingold v. New York, 366 F.3d 138, 140 (2d
Cir. 2004). Accordingly, the Eleventh Amendment bars federal claims against state
agencies, including DOCCS, under 42 U.S.C. § 1983 and 42 U.S.C. § 1985. Id., at 447.
Therefore, plaintiffs third, fifth, sixth, tenth, twelfth, thirteenth, and fourteenth (that portion
asserted under the Fourteenth Amendment) causes of action against DOCCS cannot
proceed.
Plaintiffs claims against the other State defendants in their official capacities under 42
U.S.C. § 1983 and 42 U.S.C. § 1985 for money damages are also barred by the Eleventh
Amendment. See Kentucky v. Graham, 473 U.S. 159, 169 (1985). Therefore, plaintiff
cannot maintain the third, fifth, sixth, tenth, twelfth, thirteenth, and fourteenth (that portion
asserted under the Fourteenth Amendment) causes of action against State defendants
Annucci, Caldwell, Rabsatt, McAuliffe, Sovie, O’Gorman, J. Bell, Clary, Garabrandt, Patnode,
and Gray in so far as plaintiff seeks money damages against them in their official capacities.
Additionally, the eighteenth (that portion asserted under § 1983) cause of action is also
barred as against defendants Rabsatt, McAuliffe, and Caldwell in so far as plaintiff seeks
money damages against them in their official capacities.

-11 -

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 12 of 31
18a

Finally, Congress did not, in enacting the FLSA, abrogate state sovereign immunity.
N.Y.S. Court Clerks Ass'n v. Unified Court Sys. of the State of N.Y., 25 F. Supp. 3d 459, 465
(S.D.N.Y. 2014). The State of New York has not consented to be subject to the FLSA or
otherwise waived its immunity from suits under that statute in the federal courts. Id. at 466.
Accordingly, the nineteenth cause of action cannot proceed against DOCCS and State
defendants Annucci, Caldwell, Rabsatt, McAuliffe, Sovie, O'Gorman, J. Bell, Clary,
Garabrandt, Patnode, and Gray in so far as plaintiff seeks money damages against them in
their official capacities.
Additionally, since Eleventh Amendment immunity "bars [pjlaintiffs from bringing any
damages claims against the state [or] its agencies . . .plaintiffs state law claims against
DOCCS are also barred. Henslerv. N.Y.S. Dep't of Envtl. Conservation, No. 16-CV-3445
2017 WL 2589311, n.4 (E.D.N.Y. June 14, 2017). Therefore, plaintiffs first, second,
eleventh, fifteenth, sixteenth, and seventeenth causes of action against DOCCS are barred.
Likewise, Bell’s state law claims against the other State defendants in their official
capacities for money damages are also barred by the Eleventh Amendment. Thus plaintiff
cannot proceed with the first, second, eleventh, fifteenth, sixteenth, and seventeenth causes
of action as against State defendants Annucci, Caldwell, Rabsatt, McAuliffe, Sovie
O'Gorman, J. Bell, Clary, Garabrandt, Patnode, and Gray in so far as plaintiff seeks money
damages against them in their official capacities. Additionally, the eighteenth cause of action
(that portion asserted under N.Y.C.P.L.R.) is barred as against defendants Rabsatt,
McAuliffe, and Caldwell in so far as plaintiff seeks money damages against them in their
official capacities. Finally, the fourth cause of action cannot proceed against State defendant
J. Bell in so far as plaintiff seeks money damages against him in his official capacity.
-12-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 13 of 31
19a

B. Federal Claims
1. 42 U.S.C. § 1983
"The purpose of § 1983 is to deter state actors from using the badge of their authority
to deprive individuals of their federally guaranteed rights and to provide relief to victims if
such deterrence fails." Wyatt v. Cole, 504 U.S. 158, 161 (1992). However, "[s]ection 1983
itself creates no substantive rights; it provides only a procedure for redress for the deprivation
of rights established elsewhere." Sykes v. James, 13 F.3d 515, 519 (2d Cir. 1993). Thus, a
§ 1983 claim requires a plaintiff to show (1) the deprivation of a right, privilege, or immunity
secured by the Constitution and its laws by (2) a person acting under the color of state law.
42 U.S.C. § 1983.
a. State Actors
In order to state a claim under § 1983, plaintiff must allege that he was injured by
either a state actor or a private party acting under the color of state law. See Ciambriello v.
Cty. of Nassau, 292 F.3d 307, 323 (2d Cir. 2002). However, there is no claim that
NYSCOPBA, as the union, or the individually named NYSCOPBA defendants, acted under
color of state law. Rather, Bell alleges NYSCOPBA is the certified bargaining unit for all
correctional officers employed by DOCCS, of which he was a dues paying member during his
employment at RCF. The named NYSCOPBA defendants are all past or present union
officers.
Indeed, labor unions generally are not state actors. Id. The fact that NYSCOPBA
represents public employees does not make it a state actor. Marrero v. City of N.Y., No. 02
CIV. 6634, 2003 WL 1621921, at *4 (S.D.N.Y. Mar. 28, 2003). Nor does the amended
complaint contain any allegation that NYSCOPBA—a private party—was acting under color
-13-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 14 of 31
20a

of state law. Accordingly, the NYSCOPBA defendants, acting in their capacity as union
stewards, did not act under color of state law and Bell cannot assert § 1983 claims against
them.
b. Personal Involvement
Further, in order to be held liable for one or more of Bell's § 1983 civil rights claims,
each defendant must have been personally involved in each alleged constitutional violation.
See, e.g., Odom v. Matteo, 772 F. Supp. 2d 377, 403 (D. Conn. 2011) ("It is well-settled in
this Circuit that personal involvement of defendants in alleged constitutional deprivations is a
prerequisite to an award of damages under § 1983."). Section 1983 prohibits imputing
liability on the basis of a respondeat superior theory. See, e.g., Elek v. Inc. Vill. of Monroe,
815 F. Supp. 2d 901,806 (S.D.N.Y. 2011) ("Supervisory liability in a § 1983 action depends
on a showing of some personal responsibility, and cannot rest on respondeat superior.").
Therefore, a supervisor cannot be liable for damages under § 1983 solely by virtue of being a
supervisor.
Within the correctional context, "proof of linkage in the prison chain of command is
insufficient. Absent some personal involvement by an official in the allegedly unlawful
conduct of his subordinates, he cannot be liable under section 1983." Walker v. Schriro, No.
11 Civ. 9299, 2013 WL 1234930, at *15 (S.D.N.Y. Mar. 26, 2013) (internal quotations,
citations, and alteration omitted). Therefore, "[a] defendant's status as warden or
commissioner of a prison, standing alone, is thus insufficient to support a finding of
supervisory liability." Id. Similarly, merely "affirming the administrative denial of a prison
inmate's grievance by a high-level official is insufficient to establish personal involvement
under section 1983." Manley v. Mazzuca, No. 01 Civ. 5178, 2007 WL 162476, at *10
-14-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 15 of 31
21a

(S.D.N.Y. Jan.19, 2007). "Broad, conclusory allegations that a high-ranking defendant was
informed of an incident are also insufficient." Gonzalez v. Sarreck, No. 08 Civ. 3661,2011
WL 5051341, at *14 (S.D.N.Y. Oct. 24, 2011).
Instead, "[t]he personal involvement of a supervisory defendant may be shown by
evidence that: (1) the defendant participated directly in the alleged constitutional violation;
(2) the defendant, after being informed of the violation through a report or appeal, failed to
remedy the wrong; (3) the defendant created a policy or custom under which unconstitutional
practices occurred, or allowed continuance of such a policy or custom, (4) the defendant was
grossly negligent in supervising subordinates who committed the wrongful acts, or (5) the
defendant exhibited deliberate indifference to the rights of [others] by failing to act on
information indicating that unconstitutional acts were occurring." Ruggiero v. City of
Cortland, No. 5:17-CV-790, 2018 WL 5983505, at *6 (N.D.N.Y. Nov. 14, 2018) (internal
quotations omitted).
Plaintiff has failed to allege that at least four of the State defendants were personally
involved in alleged violations of his civil rights. For this reason, Bell cannot proceed with his
§ 1983 claims against: Annucci, O'Gorman, Rabsatt, and McAuliffe. With respect to
Annucci, Commissioner of DOCCS, Bell wrote him a letter regarding the alleged unfair
distribution of overtime at RCF and the refusal of RCF management to negotiate a new
agreement. Annucci responded to Bell that the issues raised in his letter were union issues
that should be raised at local union meetings. Annucci’s response letter is insufficient to
impute § 1983 liability because plaintiffs letter to him did not involve an ongoing
constitutional violation.

-15-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 16 of 31
22a

As to defendant O’Gorman, Deputy Director of DOCCS Bureau of Labor Relations,
Bell alleges she failed to timely address his grievance on behalf of the "New York State
Labor Relations Department." These allegations fail to allege that O'Gorman was personally
involved in any action or inaction sufficient to state a constitutional claim.
Finally, with respect to Superintendents Rabsatt and McAuliffe, Bell alleges they
negligently failed to make sure that overtime at RCF was equally and fairly distributed.
These claims are insufficient to allege personal involvement against these defendants. The
amended complaint lacks facts which, if true, would show that they participated directly in the
alleged violations, knew about violations and failed to remedy them; created a policy or
custom or allowed one to continue which resulted in the violations, were grossly negligent in
supervising subordinates committing the violations, or knew and failed to act on information
that the violations were taking place.
c. Third Claim: 14th Amendment Equal Protection
In the third cause of action, brought pursuant to 42 U.S.C. § 1983, plaintiff alleges a
violation of the Equal Protection Clause of the Fourteenth Amendment. Bell brings this claim
against all defendants. He alleges defendants collectively participated in and/or authorized
the denial of his union rights, contractual rights, lawful rights, and equal protection of the law
by refusing to adopt his proposed overtime system. All defendants argue Bell has failed to
plead any individual defendant treated plaintiff differently than any other similarly situated
individual.
The Equal Protection Clause of the Fourteenth Amendment provides that no State
shall "deny to any persons within its jurisdiction the equal protection of the laws." U.S. Const.
amend. XIV, § 1. This constitutional provision is "essentially a direction that all persons
-16-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 17 of 31
23a

similarly situated be treated alike." City of Cleburne v. Cleburne Living Ctr., Inc., 473 U.S.
432, 439 (1985). "There are a number of common methods for pleading an equal protection
claim." Kisembo v. N.Y.S. Office of Children & Family Servs., 285 F. Supp. 3d 509, 523
(N.D.N.Y. 2018).
First, "[a] plaintiff could point to a law or policy that 'expressly classifies persons on the
basis of race.'" Floyd v. City of N.Y., 959 F. Supp. 2d 540, 570 (S.D.N.Y. 2013) (quoting
Brown v. City of Oneida, 221 F.3d 329, 337 (2d Cir. 1999)). Second, "a plaintiff could identify
a facially neutral law or policy that has been applied in an intentionally discriminatory
manner." Brown, 221 F.3d at 337. Third, "[a] plaintiff could also allege that a facially neutral
statute or policy has an adverse effect and that it was motivated by discriminatory animus."
Floyd, 959 F. Supp. 2d at 570 (internal quotations omitted).
Bell is not a member of an inherently suspect or vulnerable class and therefore these
first three theories of relief are inapplicable to his claims. Nor has plaintiff even attempted to
plead a "class of one" claim. See, e.g., Vill. of Willowbrook v. Olech, 528 U.S. 562 (2000).
A "class of one" claim requires, in part, a showing of similarly situated individuals or
groups who were treated differently." Mosdos Chofetz Chaim, Inc, v. Vill. of Wesley Hills,
815 F. Supp. 2d 679, 693 (S.D.N.Y. 2011). For the first time in his amended complaint, Bell
contends that defendants discriminated against him because of his national origin, in that he
lives in Canada. However, he has made no allegations that he was treated differently than
any other individuals, Canadian or otherwise. Instead, Bell alleges defendants neglected and
intentionally refused to ensure RCF correctional officer overtime hours were equally
distributed. He alleges that he, and he alone, developed an overtime scheduling proposal

-17-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 18 of 31
24a

that was not approved or implemented. There are no allegations that any of the defendants
treated plaintiff differently than any other similarly situated individual.
Accordingly, Bell's third cause of action alleging an Equal Protection violation will be
dismissed.
d. Fifth, Sixth, and Eighteenth Claims: 14th Amendment Due Process
In the fifth and sixth causes of action,8 brought pursuant to 42 U.S.C. § 1983, plaintiff
alleges a violation of the Due Process Clause of the Fourteenth Amendment. Bell brings
these claims against all defendants. In his eighteenth cause of action,9 plaintiff cites 42
U.S.C. § 1983 but does not specify an amendment; after review, this cause of action will be
construed as also asserting a due process claim. Bell brings this claim against defendants
Rabsatt, McAuliffe, and Caldwell. He alleges his due process rights were violated when he
was not given overtime he contends he was entitled to, and in turn, was not paid for that
(unworked) overtime for which he was entitled. Defendants collectively argue plaintiff does
not have a protected property interest in working overtime.
Plaintiff fails to clearly indicate whether he is attempting to assert a procedural or a
substantive due process claim. However, his assertion of a due process right to overtime
and the money therefrom suggests he is alleging a procedural due process violation.
The Fourteenth Amendment's Due Process Clause provides that "[n]o State shall. . .
deprive any person of life, liberty, or property, without due process of law." U.S. Const.
amend. XIV, § 1. The Due Process Clause thus "bars arbitrary, wrongful government

In the fifth and sixth causes of action, Bell also alleges conspiracy to interfere with his civil rights.
9 In the eighteenth cause of action, Bell also alleges larceny, embezzlement, theft, and conversion
pursuant to federal and state law.

-18-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 19 of 31
25a

actions, and guarantees procedural fairness when a state action deprives a citizen of a
protected interest in life, liberty, or property." Wiesnerv. Rosenberger, No. 98-CV-1512,
1998 WL 695927, at *3 (S.D.N.Y. Oct. 6, 1998) (citing Daniels v. Williams, 474 U.S. 327
330-32 (1986)). "The fundamental requirement of the Due Process Clause is that an
individual be given the opportunity to be heard at a meaningful time and in a meaningful
manner." Patterson v. City of Utica, 370 F.3d 322, 336 (2d Cir. 2004) (internal quotations
omitted).
To successfully state a denial of due process claim under 42 U.S.C. § 1983, "a
plaintiff must first identify a property right, second show that the government has deprived
him of that right, and third show that the deprivation was effected without due process." J.S.
v. T'Kach, 714 F.3d 99, 105 (2d Cir. 2013) (internal quotations and emphasis omitted). Bell
contends he has a property right to compensation for overtime work. However, by plaintiffs
own admission, the compensation is for overtime work which he did not perform. Instead, he
contends it is overtime work for which he is entitled to work. Yet, the CBA here in no way
guarantees that correctional officers will receive overtime pay. Article 15 of the CBA sets
forth detailed provisions concerning voluntary overtime, including payment and assignment of
overtime, but nowhere does it provide that any officer has an outright entitlement to overtime.
The essence of plaintiffs claim is that he was deprived of opportunities to earn extra
pay by working overtime. As explained above, however, the CBA does not give rise to a
legitimate expectation of receiving such pay, and due process claims based on the loss of
such additional pay or benefits, beyond an employee's base pay, have routinely been
rejected by the courts. See, e.g., MacFall v. City of Rochester, 746 F. Supp. 2d 474, 484-85
(W.D.N.Y. 2010), affd, 495 F. App’x 158 (2d Cir. 2012) (summary order); Zahrev v. City of
-19-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 20 of 31
26a

N.Y., No. 98-4546, 2009 WL 54495, at *28 (S.D.N.Y. Jan. 7, 2009) (noting that "courts have
rejected . . . claims for economic loss from missed raises, loss of private duty jobs, loss of
promotional opportunities, and loss of over-time") (internal quotations omitted), amended on
other grounds, 2009 WL 1024261 (S.D.N.Y. Apr. 15, 2009).
For these reasons, plaintiff has failed to allege sufficient facts to show he had a
protected property interest. Thus, there is no need to reach the second prong of the analysis
regarding any deprivation or process due. Bell cannot proceed with his procedural due
process claim.
Therefore, plaintiffs fifth, sixth, and eighteenth causes of action, to the extent they
assert Fourteenth Amendment Due Process violations, will be dismissed.
e. Tenth and Thirteenth Claims: First Amendment Retaliation
In the tenth and thirteenth causes of action,10 plaintiff alleges retaliation in violation of
the First Amendment. Bell brings the tenth claim against all defendants but does not specify
defendants in the thirteenth claim. He contends he complained to his union and
supervisors that overtime shifts at RCF were assigned unequally and/or based on favoritism.
Bell also distributed newsletters to his fellow correctional officers regarding his proposed
voluntary overtime system. He contends he was retaliated against for engaging in this
speech. Defendants argue Bell has failed to allege that he engaged in activity protected by
the First Amendment.

10 The tenth and thirteenth causes of action also cite the Fourteenth Amendment but such viability
will not be discussed here because the facts underlying these causes of action support a claim of retaliation
under the First Amendment. In any event, any possible claims under the Fourteenth Amendment are
discussed elsewhere in this Memorandum-Decision and Order.
-20-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 21 of 31
27a

In order to state a First Amendment retaliation claim, a public employee must allege:
(1) he engaged in speech that was constitutionally protected; (2) he suffered an adverse
employment action; and (3) there existed a causal connection between the protected speech
and the adverse employment action, such that it could be inferred that the speech was a
"motivating factor" in the employment action. See Beechwood Restorative Care Ctr. v.
Leeds, 436 F.3d 147, 152 (2d Cir. 2006).
"Whether speech by a public employee is protected from retaliation under the First
Amendment begins with this question: 'whether the employee spoke as a citizen on a matter
of public concern.' If a public employee speaks not as a citizen but instead pursuant to his or
her 'official duties,' an employer’s response to that speech does not violate the First
Amendment." Huth v. Haslun, 598 F.3d 70, 73-74 (2d Cir. 2010) (quoting Garcetti v.
Ceballos, 547 U.S. 410, 418, 421,424 (2006)).
"Whether or not speech addresses a matter of public concern must be determined by
the content, form, and context of a given statement, as revealed by the whole record, and
while motive surely may be one factor in making this determination, it is not, standing alone,
dispositive or conclusive." Sousa v. Roque, 578 F.3d 164, 175 (2d Cir. 2009) (internal
citation and quotations omitted). "The heart of the matter is whether the employee's speech
was calculated to redress personal grievances or whether it had a broader public purpose."
Ruotolo v. City of N.Y., 514 F.3d 184, 189 (2d Cir. 2008) (internal quotations omitted).
"[T]he First Amendment does not protect all private ventings of disgruntled public
employees." Singer v. Ferro, 711 F.3d 334, 340 (2d Cir. 2013). To the contrary, an
employee's complaints about scheduling and overtime pay are not matters of public concern;
such claims are the quintessential employee grievance not protected by the First
-21 -

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 22 of 31
28a

Amendment. See, e.g., Adams v. N.Y.S. Educ. Dep't, 705 F. Supp. 2d 298, 302-03
(S.D.N.Y. 2010) (finding plaintiffs speech not protected by the First Amendment because it
"concerned personal grievances expressed as employees generally relating to their official
duties, work schedules, working conditions, or employer administrative policies and internal
operations").
By contrast, matters concerning public safety and the purported adequacy and
function of entities entrusted with protecting that safety are the type of speech courts have
held to be related to matters of public concern. See Gorman-Bakos v. Cornell Co-op
Extension of Schenectady Cty., 252 F.3d 545, n.4 (2d Cir. 2001) ("Plaintiffs’. . . speech
focused on the safety of young children at horse shows involving 4-H, a matter of public
concern."); Gusler v. City of Long Beach, 823 F. Supp. 2d 98, 125 (E.D.N.Y. 2011) (finding
plaintiff firefighter's speech was protected because it was motivated, at least in part, by a
desire to protect the public from what he viewed as an insufficient firefighting force); Scheiner
v. N.Y.C. Health & Hospitals, 152 F. Supp. 2d 487, 496 (S.D.N.Y. 2001) (holding that
physicians statements regarding conditions at public hospital were matters of public concern
because they related to issues of public health, safety, and the administration of public
resources).
Bell's attempt at bootstraping his unprotected speech to issues of corruption and theft
in a public institution does not save his claim. He contends that corrupt officers prevented
his overtime proposal from being implemented and that his proposal would have stopped
alleged theft of overtime pay due to preferential overtime job assignments. However, as the
Second Circuit has noted, "[a] public employee may not transform a personal grievance into
a matter of public concern by invoking a supposed popular interest in the way public
-22-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 23 of 31
29a

institutions are run." Ruotolo, 514 F.3d at 190 (citing Boyce v. Andrew, 510 F.3d 1333, 1343
(11th Cir. 2007)). Similarly, "[a] generalized public interest in the fair or proper treatment of
public employees is not enough" to transform a personal grievance related to the conditions
of one's employment into a matter of public concern. Golodner v. Berliner, 770 F.3d 196,
204 (2d Cir. 2014) (citing Ruotolo. 514 F.3d at 190).
Plaintiffs amended complaint fails to allege that he engaged in protected speech. As
a public employee, he fails to satisfy the requirement that he spoke as a citizen on a matter
of public concern. Instead, he alleges only that he made complaints, as an employee at
RCF, about overtime scheduling at RCF. Because Bell's speech regarding his overtime
proposal concerns essentially personal grievances and a disagreement with the system in
place, the speech was not on a matter of public concern. Accordingly, he has failed to allege
that he engaged in activity protected by the First Amendment.
Therefore, plaintiffs tenth and thirteenth causes of action alleging First Amendment
retaliation will be dismissed.
f. Twelfth Claim: "42 U.S.C. § 1983"
The twelfth cause of action, brought pursuant to 42 U.S.C. § 1983 and asserted
against all defendants, fails to identify any constitutional provision that defendants have
allegedly violated. As set forth in other sections of this Memorandum-Decision and Order
plaintiff has not pleaded an equal protection, due process, nor First Amendment claim. Bell
has alleged nothing unique in this cause of action that is not addressed elsewhere in his
amended complaint. This claim, like the 18 others, is premised around the contention that
plaintiff was not allowed to work his proportionate share of voluntary overtime. As explained

-23-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 24 of 31
30a

throughout this discussion, Bell does not have a protected property interest in working
overtime.
Accordingly, plaintiffs twelfth cause of action asserting an unspecified § 1983 claim
will be dismissed.
2. Fifth and Sixth Claims: 42 U.S.C. § 1985
In the fifth and sixth causes of action,11 brought pursuant to 42 U.S.C. § 1985(2) and
(3), plaintiff alleges a conspiracy to interfere with his civil rights. Bell brings this claim against
all defendants. He alleges two different conspiracies: a conspiracy to retaliate against him
for the exercise of his First Amendment rights and a conspiracy to deny him his Fourteenth
Amendment rights of due process and equal protection. Defendants collectively argue Bell
fails to allege a class-based racial or otherwise discriminatory animus. Further, the State
defendants contend plaintiffs claims are barred by the intra-corporate conspiracy doctrine.
The NYSCOPBA defendants additionally argue Bell has failed to plead the existence of a
conspiracy.
"42 U.S.C. § 1985 was enacted as part of the Civil Rights Act of 1861, 'which is
commonly referred to as the Ku Klux Klan Act."' Empire Merchants, LLC v. Reliable Churchill
LLP, No. 16-CV-5226, 2017 WL 7512900, at *8 (E.D.N.Y. Jan. 30, 2017) (quoting Keating v.
Carey, 706 F.3d 377, 389 (2d Cir. 1983)). "One of the protections provided by the statute to
'[t]hose harassed and threatened by rampant vigilantism, notably blacks and black
supporters in the South .... [was] a remedy to vindicate their civil rights' by assuring that
those ’[g]roups threatened by the wave of racial/political violence . . . [had] access to the

11 As previously noted, in the fifth and sixth causes of action, Bell also alleges a Fourteenth
Amendment due process violation.
-24-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 25 of 31
31a

courts."' Id. "To that end, the Act ’proscribed conspiracies that interfere with ... the
administration of justice in federal courts.’" Id. (quoting Kush v. Rutledge, 460 U.S. 719, 724
(1983)).
First, Bell's § 1985(2) claim fails, since he does not allege he was either a party or a
witness to a pending matter in federal court at the time he brought this civil rights action.
See, e.g., Ruggiero, 2018 WL 5983505, at *9, n.6.
Next, ”[t]o state a cause of action under § 1985(3), a plaintiff must allege (1) a
conspiracy (2) for the purpose of depriving a person or class of persons of the equal
protection of the laws, or the equal privileges and immunities under the laws; (3) an overt act
in furtherance of the conspiracy; and (4) an injury to the plaintiffs person or property, or a
deprivation of a right or privilege of a citizen of the United States." Thomas v. Roach, 165
F.3d 137, 146 (2d Cir. 1999). Further, "the complaint must allege that the plaintiff is a
member of a protected class or that he was injured as a result of racial or other class-based"
discrimination. Anghel v. N.Y.S. Dep't of Health, 947 F. Supp. 2d 284, 303 (E.D.N.Y. 2013).
Even if Bell could satisfy the initial four elements of a § 1985 conspiracy, he has failed
to plausibly allege that any alleged conspiratorial misconduct stems from the kind of "racial or
other class-based" animus required by controlling federal law. See, e.g., Pravda v. City of
Albany, 956 F. Supp. 174, 180 (N.D.N.Y. 1997) (Scullin, J.) ("It is well settled that a plaintiff
attempting to establish a claim under... § 1985(3) must demonstrate that the Defendant
under consideration acted with class-based invidiously discriminatory animus."). Plaintiff fails
to allege that he is a member of a suspect or quasi-suspect class. Instead, he alleges that
he is someone whose overtime scheduling proposal was not accepted or implemented by the
union. Such allegations fail to satisfy the requirements of a claim under § 1985(3).
-25-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 26 of 31
32a

Accordingly, plaintiffs fifth and sixth causes of action alleging civil rights conspiracies
pursuant to § 1985 will be dismissed.
3. Fourteenth Claim: Title VII
In the fourteenth cause of action,12 brought pursuant to Title VII, plaintiff alleges
defendants discriminated against him because his is a member of a protected class; i.e.
those who maintain residencies in Canada. It is assumed for purposes of this discussion that
Bell brings this claim against all defendants. Defendants collectively argue plaintiff is not in a
protected class.
Title VII of the Civil Rights Act of 1964, 42 U.S.C. § 2000e et seq., makes it unlawful
"to fail or refuse to hire or to discharge any individual, or otherwise to discriminate against
any individual with respect to his compensation, terms, conditions, or privileges of
employment" based on a protected characteristic, [d. § 2000e-2. The statute prohibits
discrimination due to the protected characteristics of "race, color, religion, sex, or national
origin." Id.
"At the pleadings stage, Title VII ’requires a plaintiff asserting a discrimination claim to
allege two elements: (1) the employer discriminated against him (2) because of his race,
color, religion, sex, or national origin.'" Rowe v. N.Y.S. Dep't of Tax & Fin., No.
1:17-CV-1390, 2018 WL 3384429, at *5 (N.D.N.Y. July 10, 2018) (quoting Vega v.
Hempstead Union Free Sch. Dist., 801 F.3d 72, 85 (2d Cir. 2015)).

12 As previously noted, in the fourteenth cause of action, Bell also alleges a Fourteenth Amendment
violation.
-26-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 27 of 31
33a

Bell has failed to allege that he is in a protected class. Being a Canadian resident
does not constitute membership in a protected class. Accordingly, his Title VII claim fails at
the outset and there is no need to consider the remaining elements of a Title VII claim.
Therefore, plaintiffs fourteenth cause of action, to the extent it asserts a Title VII
claim, will be dismissed.
4. Eighteenth Claim: 18 U.S.C. SIS 641.653. and 654
In the eighteenth cause of action, brought pursuant to 18 U.S.C. §§ 641, 653, and
654, plaintiff alleges defendants stole, embezzled, or converted money by refusing to assign
overtime in the manner he prefers. He contends he suffered the loss of overtime money as
he did not want to become involved in the illegal wrongful actions within RCF. He alleges
defendant Caldwell was responsible for ensuring that theft did not take place within RCF and
further that defendants Rabsatt, McAuliffe, and Caldwell wrongfully withheld overtime money
and then illegally converted it. Defendants argue plaintiff cannot maintain a private cause of
action under this statute.
Sections 641,653 and 654 are federal criminal statutes. Section 641 criminalizes
embezzlement of public funds. This claim fails as a matter of law because the statute
provides no basis for civil liability. See, e.g., Byvalets v. N.Y.C. Hous. Auth., No.
16-CV-6785, 2017 WL 7793638, n.9 (E.D.N.Y. July 28, 2017), report and recommendation
adopted, 2018 WL 1067732 (E.D.N.Y. Feb. 23, 2018) (citing Davis v. N.Y.C. Dep't/Bd. of
Educ., No. 14 CV 2281,2015 WL 5772204, at *2, 3 (E.D.N.Y. Sept. 29, 2015)). Section 653
makes it a crime for an authorized disbursing officer to misuse or convert public money to his
own use and § 654 criminalizes an officer or employee of the United States converting the

-27-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 28 of 31
34a

property of another. Plaintiff has not cited any authority which would support implying a
private right of action for violation of these latter two sections.
Therefore, plaintiffs eighteenth cause of action alleging violations of 18 U.S.C.
§§ 641,653, and 654 will be dismissed.
5. Nineteenth Claim: Fair Labor Standards Act
In the nineteenth cause of action, brought pursuant to the FLSA, plaintiff alleges
defendants violated his rights under the Fair Labor Standards Act because they did not pay
him overtime money. Bell brings this claim against all defendants. Defendants collectively
argue plaintiff fails to state a claim because there is no work for which he has not been paid.
The FLSA, 29 U.S.C. § 203 et seq., is a United States labor law that creates the right
to a minimum wage and time-and-a-half overtime pay when people work over 40 hours in a
week. Plaintiff has not cited any specific provision of the statute nor made a claim that he
was not paid minimum wage or not paid time-and-a-half overtime pay when working in
excess of 40 hours a week. Instead, the gist of this claim is that defendants violated the
FLSA because Bell was not paid for overtime work which he wanted to work, but was not
given the opportunity to work. This claim defies logic.
Accordingly, plaintiffs nineteenth cause of action alleging a FLSA violation will be
dismissed.
C. State Claims
Plaintiff has pleaded the following state law causes of action: first, breach of the duty
of fair representation; second, breach of contract/tortious interference; fourth, personal injury;
seventh, New York Civil Service Law Article 14 (the "Taylor Law"); eighth, Taylor Law; ninth
Taylor Law; eleventh, Taylor Law; fifteenth, breach of fiduciary duty; sixteenth, intentional
-28-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 29 of 31
35a

infliction of emotional harm; seventeenth, property injury; and eighteenth, embezzlement,
theft, and conversion.
"Where, as here, a plaintiffs federal claims will be dismissed before trial, a district
court should generally decline to exercise supplemental jurisdiction over any state law claims
absent exceptional circumstances." B.A. v. City of Schenectady Sch. Dist., 209 F. Supp. 3d
515, 528 (N.D.N.Y. 2016). There are no exceptional circumstances present in this case that
might warrant a different conclusion. Because defendants' motions to dismiss will be granted
as to the federal claims, the continued exercise of supplemental jurisdiction over Bell's state
law claims will be declined. See 28 U.S.C. § 1367(c)(3).
There is no need to consider the remaining arguments.
V. CONCLUSION
Therefore, it is
ORDERED that
1. Plaintiff Randy R. Bell's motion to amend, ECF No. 45, is GRANTED and the
amended complaint accepted for review;
2. The NYSCOPBA defendants' motion to dismiss, ECF No. 26, pursuant to Rule
12(b)(1) & (6) is GRANTED in part and DENIED in part as moot;
3. The State defendants' motion to dismiss, ECF No. 37, pursuant to Rule 12(b)(1) &
(6) is GRANTED in part and DENIED in part as moot;
4. Defendants' motions to dismiss are GRANTED as to all federal claims in the
amended complaint and those claims DISMISSED including:
a. the third cause of action alleging an equal protection violation;
b. the fifth and sixth causes of action alleging civil rights conspiracies;
-29-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 30 of 31
36a

c. the fifth, sixth, and eighteenth causes of action to the extent they allege due
process violations;
d. the tenth and thirteenth causes of action alleging First Amendment
retaliation;
e. the twelfth cause of action alleging an unspecified 42 U.S.C. § 1983
violation;
f. the fourteenth cause of action to the extent it alleges a Title VII violation;
g. the eighteenth cause of action alleging violations of 18 U.S.C. §§ 641, 653,
and 654; and
h. the nineteenth cause of action alleging a FLSA violation;
5. Defendants’ motions to dismiss are DENIED without prejudice as to all state law
claims in the amended complaint;
6. Supplemental jurisdiction is DECLINED over all state law claims in the amended
complaint including:
a. the first cause of action alleging breach of the duty of fair representation;
b. the second cause of action alleging breach of contract/tortious interference;
c. the fourth cause of action alleging personal injury;
d. the seventh cause of action alleging a Taylor Law violation;
e. the eighth cause of action alleging a Taylor Law violation;
f. the ninth cause of action alleging a Taylor Law violation;
g. the eleventh cause of action alleging a Taylor Law violation;
h. the fifteenth cause of action alleging breach of fiduciary duty;
i. the sixteenth cause of action alleging intentional infliction of emotional harm;
-30-

Case l:17-cv-00937-DNH-CFH Document 62 Filed 03/22/19 Page 31 of 31
37a

j. the seventeenth cause of action alleging property injury; and
k. the eighteenth cause of action alleging embezzlement, theft, and
conversion; and
7. The Clerk is directed to enter judgment accordingly and close the file.
IT IS SO ORDERED.

Dated: March 22, 2019
Utica, New York.

-31 -

APPENDIX H
38a

28U.S.C. 2107:
(a) Except as otherwise provided in this section, no appeal shall bring any
judgment, order or decree in an action, suit or proceeding of a civil nature before a
court of appeals for review unless notice of appeal is filed, within thirty days after
the entry of such judgment, order or decree.
(b)In any such action, suit, or proceeding, the time as to all parties shall be 60 days
from such entry if one of the parties is—
(1)
the United States;
(2)
a United States agency;
(3)
a United States officer or employee sued in an official capacity; or
(4)
a current or former United States officer or employee sued in an individual capacity
for an act or omission occurring in connection with duties performed on behalf of the
United States, including all instances in which the United States represents that
officer or employee when the judgment, order, or decree is entered or files the
appeal for that officer or employee.
(c)The district court may, upon motion filed not later than 30 days after the
expiration of the time otherwise set for bringing appeal, extend the time for appeal
upon a showing of excusable neglect or good cause. In addition, if the district court
finds—
(1)
that a party entitled to notice of the entry of a judgment or order did not receive
such notice from the clerk or any party within 21 days of its entry, and
(2)
that no party would be prejudiced,
the district court may, upon motion filed within 180 days after entry of the
judgment or order or within 14 days after receipt of such notice, whichever is
earlier, reopen the time for appeal for a period of 14 days from the date of entry of
the order reopening the time for appeal.
(d)
This section shall not apply to bankruptcy matters or other proceedings under Title
11.

39a

28 U.S.C. 1254:
Cases in the courts of appeals may be reviewed by the Supreme Court by the
following methods:
(1)
By writ of certiorari granted upon the petition of any party to any civil or criminal
case, before or after rendition of judgment or decree;
28U.S.C. 1257:
(a) Final judgments or decrees rendered by the highest court of a State in
which a decision could be had, may be reviewed by the Supreme Court by writ of
certiorari where the validity of a treaty or statute of the United States is drawn in
question or where the validity of a statute of any State is drawn in question on the
ground of its being repugnant to the Constitution, treaties, or laws of the United
States, or where any title, right, privilege, or immunity is specially set up or
claimed under the Constitution or the treaties or statutes of, or any commission
held or authority exercised under, the United States.
U.S. Const, art. Ill, sec. II:
Section 2.
The judicial power shall extend to all cases, in law and equity, arising under
this Constitution, the laws of the United States, and treaties made, or which shall
be made, under their authority;--to all cases affecting ambassadors, other public
ministers and consuls;--to all cases of admiralty and maritime jurisdiction;-to
controversies to which the United States shall be a party;-to controversies between
two or more states;--between a state and citizens of another state;-between citizens
of different states;-between citizens of the same state claiming lands under grants
of different states, and between a state, or the citizens thereof, and foreign states,
citizens or subjects.
In all cases affecting ambassadors, other public ministers and consuls, and those in
which a state shall be party, the Supreme Court shall have original jurisdiction. In
all the other cases before mentioned, the Supreme Court shall have appellate
jurisdiction, both as to law and fact, with such exceptions, and under such
regulations as the Congress shall make.
The trial of all crimes, except in cases of impeachment, shall be by jury; and such
trial shall be held in the state where the said crimes shall have been committed; but
when not committed within any state, the trial shall be at such place or places as
the Congress may by law have directed.

41a

N.Y. CPLR 213(8):
8. an action based upon fraud; the time within which the action must be
commenced shall be the greater of six years from the date the cause of action
accrued or two years from the time the plaintiff or the person under whom the
plaintiff claims discovered the fraud, or could with reasonable diligence have
discovered it.
18 U.S.C 3282(a):
(a) In General.
Except as otherwise expressly provided by law, no person shall be prosecuted,
tried, or punished for any offense, not capital, unless the indictment is found or the
information is instituted within five years next after such offense shall have been
committed.
N.Y. Civ. Serv. Law 134(3):
The amount received as overtime compensation under this section shall be
regarded as salary or compensation for any of the purposes of any pension or
retirement system in which the employee receiving the same is a member.
Overtime compensation shall not be regarded as salary or compensation for the
purpose of determining the right to any increase of salary or any salary increment
on account of length of service or otherwise. No such overtime compensation shall
be construed to constitute a promotion or to increase any compensation which a
public employee may receive pursuant to section six of chapter six hundred eight of
the laws of nineteen hundred fifty-two.
U.S. Const, amend. V:
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a grand jury, except in cases arising in the
land or naval forces, or in the militia, when in actual service in time of war or public
danger; nor shall any person be subject for the same offense to be twice put in
jeopardy of life or limb; nor shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without just compensation.
U.S. Const, amend. XIV sec. I:
All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the state wherein they
reside. No state shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.

42a

42 USC 1983:
Every person who, under color of any statute, ordinance, regulation, custom,
or usage, of any State or Territory or the District of Columbia, subjects, or causes to
be subjected, any citizen of the United States or other person within the jurisdiction
thereof to the deprivation of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured in an action at law, suit in
equity, or other proper proceeding for redress, except that in any action brought
against a judicial officer for an act or omission taken in such officer’s judicial
capacity, injunctive relief shall not be granted unless a declaratory decree was
violated or declaratory relief was unavailable. For the purposes of this section, any
Act of Congress applicable exclusively to the District of Columbia shall be
considered to be a statute of the District of Columbia.

Federal Rules of Civil Procedure, Rule 60(d)(3):
(d) Other Powers to Grant Relief. This rule does not limit a court's power to:
(1) entertain an independent action to relieve a party from a judgment, order,
or proceeding;
(2) grant relief under 28 U.S.C. §1655 to a defendant who was not personally
notified of the action; or
(3) set aside a judgment for fraud on the court.

Federal Rules of Civil Procedure, Rule 61:
Unless justice requires otherwise, no error in admitting or excluding
evidence—or any other error by the court or a party—is ground for granting a new
trial, for setting aside a verdict, or for vacating, modifying, or otherwise disturbing a
judgment or order. At every stage of the proceeding, the court must disregard all
errors and defects that do not affect any party's substantial rights.

Federal Rules of Civil Procedure, Rule 23(a):
(a) Prerequisites. One or more members of a class may sue or be sued as
representative parties on behalf of all members only if:
(1) the class is so numerous that joinder of all members is impracticable;
(2) there are questions of law or fact common to the class;
(3) the claims or defenses of the representative parties are typical of the claims
or defenses of the class; and

43a

(4) the representative parties will fairly and adequately protect the interests of
the class.

